CERTIFICATE OF COMPLIANCE

MIKE KELLY, U.S. CONGRESSMAN, ET AL.,
Applicants,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

I certify that the motion for leave to file the brief of amicus curiae Eagle Forum
Education and Legal Defense Fund in support of applicants contains a total of 509
words, excluding the parts exempted by Supreme Court Rule 33.1(d). I further
certify that the brief of amicus curiae Eagle Forum Education and Legal Defense
fund in support of applicants contains a total of 2,112 words, excluding the parts
exempted by Supreme Court Rule 33.1(d).

